2311 Douglas Street
Omaha, Nebraska 68102-1214

C@OCKLE

: E-Mail Address:
Le ga | Briefs contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-18
ARTHUR GREGORY LANGE,
Petitioner,
v.
STATE OF CALIFORNIA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE NATIONAL
FRATERNAL ORDER OF POLICE, AS AMICUS CURIAE IN SUPPORT OF THE JUDGMENT
BELOW in the above entitled case complies with the typeface requirement of Supreme Court Rule
33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10°point for the
footnotes, and this brief contains 5491 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 13th day of January, 2021.
| am duly authorized under the laws of the State of Nebraska to administer oaths.

    
 

RENEE J. GOSS
shee My Comm. Exp. September 5, 2023

 

f GENERAL NOTARY-State of Nebraska

 

 

Affiant 40395

Kerse, 0. Lless Qndeneh. Bh he

Notary Public
